Record Press Inc., 229 West 36th Street, New York, N.Y. 10018•
Tel: (212) 619-4949• Fax No. (212) 608-3141

81972
STATE OF NEW YORK,

AFFIDAVIT OF SERVICE

SS:
COUNTY OF NEW YORK

Howard Daniels being duly sworn, deposes and says that deponent is not party to the action, and is
over 18 years of age.
That on the 7th day of February 2020 deponent served 3 copies of the within

BRIEF AMICI CURIAEOF THE AMERICAN CIVIL LIBERTIES UNION, THE ACLU OF NEW MEXICO,
THE INSTITUTE FOR JUSTICE, THE CENTER FOR CONSTITUTIONAL RIGHTS, THE LEADERSHIP
CONFERENCE ON CIVIL AND HUMAN RIGHTS, AND THE NATIONAL POLICE ACCOUNTABILITY
PROJECT IN SUPPORT OF PETITIONER
upon the attorneys at the addresses below, and by the following method:
BY FEDERAL EXPRESS NEXT BUSINESS DAY
DELIVERY:

BY EXPRESS MAIL NEXT BUSINESS DAY
DELIVERY:

E. Joshua Rosenkranz
Orrick, Herrington & Sutcliffe LLP
51 West 52nd Street
New York, NY 10019
212-506-5380
jrosenkranz@orrick.com

Mark D. Standridge
Jarmie & Rogers, P.C.
Attorneys at Law
P.O. Box 344
Las Cruces, N.M. 88004
(575) 526-3338
mstandridge@jarmielaw.com

Counsel for Petitioner
Counsel for Respondents

I, Howard Daniels, declare under penalty of perjury under the laws of the United States of America
that the foregoing is true and correct, executed on February 7, 2020, pursuant to Supreme
_
Court Rule 29.5(c). All parties required to be se;v7d, h ~ n ~ e d .

,d-~

-~

n

Howard Daniels

Sworn to me this

February 7, 2020
NADIA R. OSWALD HAMID
Notary Public, State of New York
No. 01OS6101366
Qualified in Kings County
mission Expires November 10, 2023

Case Name: Torres v. Madrid
Docket/Case No. 19-292

